Audit Report




OIG-07-025
Agreed-Upon Procedures for the Department of the Treasury’s
Fiscal Year 2006 Intragovernmental Activity and Balances
January 16, 2007




Office of
Inspector General
Department of the Treasury
Contents


Transmittal Memorandum


Independent Accountants’ Report on Applying Agreed-Upon
Procedures for Intragovernmental Activity and Balances
                                    DEPARTMENT OF THE TREASURY
                                          W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           January 16, 2007


            MEMORANDUM FOR RICHARD HOLCOMB, ACTING CHIEF FINANCIAL OFFICER
                           DEPARTMENT OF THE TREASURY

                                 FAYE McCREARY, DIRECTOR
                                 FINANCIAL REPORTS DIVISION
                                 FINANCIAL MANAGEMENT SERVICE

                                 LYNDA DOWNING, ASSISTANT DIRECTOR
                                 FINANCIAL MANAGEMENT AND ASSURANCE
                                 GOVERNMENT ACCOUNTABILITY OFFICE

            FROM:                Joel A. Grover
                                 Deputy Assistant Inspector General
                                   for Financial Management and Information
                                   Technology Audits

            SUBJECT:             Agreed-Upon Procedures for the Department of the
                                 Treasury’s Fiscal Year 2006 Intragovernmental Activity and
                                 Balances

            I am pleased to transmit the attached report on agreed-upon procedures for the
            Department of the Treasury’s (Department) fiscal year (FY) 2006 intragovernmental
            activity and balances. Under a contract monitored by the Office of Inspector
            General, KPMG LLP, an independent certified public accounting firm, performed the
            agreed-upon procedures for the Department’s FY 2006 intragovernmental activity
            and balances. The contract required that the agreed-upon procedures be performed
            in accordance with generally accepted government auditing standards. KPMG LLP
            issued the attached Independent Accountants’ Report on Applying Agreed-Upon
            Procedures for Intragovernmental Activity and Balances.

            In connection with the contract, we reviewed KPMG LLP’s report and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an agreed-upon procedures engagement performed in accordance with
            generally accepted government auditing standards, was not intended to enable us
            to report, and we do not report, findings based on agreed-upon procedures
            performed on the Department’s intragovernmental activity and balances. KPMG LLP
            is responsible for the attached report dated January 11, 2007 and the conclusions
            expressed in the report. However, our review disclosed no instances where
            KPMG LLP did not comply, in all material respects, with generally accepted
            government auditing standards.
Page 2

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
Independent Accountants’ Report on Applying Agreed-Upon
  Procedures for Intragovernmental Activity and Balances
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




               Independent Accountants’ Report on Applying Agreed-Upon Procedures
                           for Intragovernmental Activity and Balances


Inspector General
U.S. Department of the Treasury:

We have performed the procedures enumerated in Exhibit I (attached), which were based on the procedures
stated in the U.S. Department of the Treasury’s (Department) Treasury Financial Manual, Volume 1, Part
2, Chapter 4700, Section 4705.80 IG Agreed-Upon Procedures for Federal Intragovernmental Activity and
Balances, solely to assist the Department’s Office of Inspector General (OIG) and the U.S. Government
Accountability Office (GAO) in evaluating the Department’s assertion that it properly reported
intragovernmental activity and balances in the Department’s consolidated financial statements as of and for
the year ended September 30, 2006, and in its 2006 Financial Report of the United States Government
Closing Package (Closing Package). The Department’s management is responsible for the proper
accounting, presentation and reporting of its intragovernmental activity and balances, consolidated
financial statements, and Closing Package.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and the standards applicable to
attestation engagements contained in Government Auditing Standards issued by the Comptroller General of
the United States. The sufficiency of these procedures is solely the responsibility of the Treasury Financial
Management Service (FMS), GAO, and the Office of Management and Budget (OMB). Consequently, we
make no representation regarding the sufficiency of the procedures described in Exhibit I either for the
purpose for which this report has been requested or for any other purpose. The procedures we performed
and our associated findings are presented in Exhibit I.

We were not engaged to, and did not, conduct an examination of the information presented herein, the
objective of which would be the expression of an opinion on such information. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the Department, the Department’s OIG, FMS,
GAO, and OMB, and is not intended to be and should not be used by anyone other than these specified
parties.




January 11, 2007




                                       KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                       a member of KPMG International, a Swiss cooperative.
                                                                                                        Exhibit I

                                 U.S. DEPARTMENT OF THE TREASURY
                     Agreed-Upon Procedures for Intragovernmental Activity and Balances



Procedures and Findings

Procedure 1

Obtain the Department’s policies and procedures that describe the Department's activities to record, process,
summarize, reconcile, and report intragovernmental activity/balances by trading partner. Determine if the items
identified in the CFO-provided reconciliation schedule were recorded at year end in accordance with the
Department's policies and procedures.

Finding 1

We obtained the Department’s policies and procedures titled “Departmental Guidelines for Reconciling and
Reporting Intra-Departmental Transactions,” dated June 14, 2006, that include procedures for the Department’s
activities to record, process, summarize, reconcile, and report intragovernmental activity/balances by trading
partner.

We obtained the CFO-provided reconciliation schedule titled “Material Differences for Fiscal Year End 2006
Greater than $250M” dated December 19, 2006 (reconciliation schedule), that included the Department’s
explanations (See Attachment A). We agreed each of the Department’s balances reported in column four of the
reconciliation schedule titled “Reporting Agency” to the respective consolidated intragovernmental balances
recorded in the Department’s general ledger at September 30, 2006, and noted one exception as described
below.

A component of the Department (Internal Revenue Service) did not record intragovernmental transactions at
year end in accordance with the Department's policies and procedures. The IRS incorrectly recorded
$565,000,000 of interest owed to the Social Security Administration as “Public” instead of
“intragovernmental.”

No additional procedures were performed with respect to management’s explanations as to the reasons
for the differences.

Procedure 2

a.	 In the event of nonreporting by trading partners, report those differences and indicate that the difference is
    due to nonreporting by the trading partner. Cooperation between IG offices of the trading partners is
    encouraged.

b.	 Compare items related to the balances identified by FMS in Step 1 of the CFO procedures recorded after year
    end to supporting documentation to determine if they were recorded in the proper year.




                                                        2	                                           (Continued)
                                                                                                           Exhibit I

                                     U.S. DEPARTMENT OF THE TREASURY
                       Agreed-Upon Procedures for Intragovernmental Activity and Balances



Finding 2

a. 	 Based on the trading partner reported amount in the fourth column of the reconciliation schedule and the
     Department’s explanations, we identified one difference due to nonreporting by a trading partner of the
     Department as follows:

                                Table 1 – Nonreporting Trading Partner Differences


         Transaction            Reporting         Trading Partner
         Description             Agency                 (1)                Difference    Explanation

      Investment Interest
       Expense/Revenue         $791,000,000                $0             $791,000,000       (2)

        (1)      Trading Partner is the Department of Veterans Affairs.
        (2)      Trading Partner did not report a balance.

b. 	Step 1 of the CFO procedures described in the Treasury Financial Manual, Volume 1, Part 2, Chapter 4700,
    Section 4705.75d, Section III, New CFO Requirements for IG AUPs, states “Receive from FMS an e-mail
    that identifies certain material differences by reciprocal category and trading partner from agencies’
    offsetting GFRS Module GF004 input.”

    We requested items (adjustments) made by the Department after year end related to the Department’s
    intragovernmental balances identified by FMS in Step 1 of the CFO procedures. The Department confirmed
    that no adjustments were recorded by the Department after year end to the Department’s intragovernmental
    balances reported to FMS.

Procedure 3

Identify and include copies of audit findings related to the transactions identified in Procedures 1 and 2, that were
reported during the audit of the Department’s fiscal year 2006 consolidated financial statements, such as reasons
for disclaimer and/or qualification, material weaknesses, reportable conditions, noncompliance with laws and
regulations and items cited in the management letter. Also identify and report auditor-proposed
intragovernmental adjustments that were waived by the Department relating to these transactions.

Finding 3

We identified no internal control findings during our audit of the Department’s fiscal year 2006 consolidated
financial statements related to the transactions identified in Procedures 1 and 2 for inclusion in our report on
internal control over financial reporting.

We identified a finding during our audit of the Department’s fiscal year 2006 consolidated financial statements
related to the transactions identified in Procedures 1 and 2, that will be reported as a comment in the
Department’s fiscal year 2006 management letter.




                                                                3	                                      (Continued)
                                                                                                   Exhibit I

                               U.S. DEPARTMENT OF THE TREASURY
                    Agreed-Upon Procedures for Intragovernmental Activity and Balances



We identified two auditor-proposed intragovernmental account adjustments related to these transactions during
our audit of the Department’s fiscal year 2006 consolidated financial statements that were waived by the
Department. These adjustments are presented in Attachment B to this report.




                                                     4

                                                                                                              December 19, 2006




Material Differences for Fiscal Year End 2006 Greater than $250M*
                       Agency Code/Name: Dept. of Treasury
                   Agency Contact/Ph/Email: Joe McAndrew/(202)622-0622



                                                                                                              Treasury Ref
                                                                                                              Mat Diffs
                                                                                                              Comparison-
       a
 TP RC P_or_S                      Rptg_Agy                     Trdg_Partner                 Material_Diff    Next Tab
                                                                                                                             Timing / Accounting Methodology
12     02 S                            709,000,000                    427,000,000               282,000,000         (1)      difference FFB and Agriculture
                                                                                                                             Treasury is continuing to work with Ag
12     05 S                         5,247,000,000                   4,484,000,000               763,000,000         (2)      regarding this difference. See e-mails
                                                                                                                             Interior cites SFFAS No. 27. E-Mail to
                                                                                                                             Dave Horn 12-11-06. He refers to par.
                                                                                                                             38. He stated that the DOI f/s auditors
                                                                                                                             asked that DOI to adjust their balances.
                                                                                                                             A portion of the DOI balances are
                                                                                                                             attributable to Coast Guard and the Army
                                                                                                                             Corps of Engineeers. JMc informed
                                                                                                                             BPD, DHS and USACE by e-mail 12-11-
14     01 S                         8,670,000,000                   8,069,224,000               600,776,000         (3)      06
19     18 S                                     0                   (905,762,000)               905,762,000         (4)      Partner Error
                                                                                                                             See Additonal Info from FCC TP 27. e-
27     01 S                         4,418,000,000                   4,708,476,000               290,476,000         (5)      mail 12-12-06 from Jacquie Harvey
                                                                                                                             IRS Error 11-21-06 e-mail from IRS -
28     05 S                                            0              565,000,000               565,000,000         (6)      Mark Brey
                                                                                                                             CP RC Logic - No real difference.
                                                                                                                             acknowledged by FMS 11-21-06 e-mail
28     24     S                        98,000,000                    737,000,000                639,000,000         (7)      from Ben Sussman.
36     01     S                    12,683,000,000                 13,666,000,000                983,000,000         (8)      Partner Error
36     03     S                       791,000,000                              0                791,000,000         (9)      Partner Error
36     17     S                       982,000,000                              0                982,000,000        (10)      Partner Error
                                                                                                                             BPD does not recognize market affects
51     01 S                        51,640,000,000                 51,894,899,151                254,899,151        (11)      on GAS Securities
                                                                                                                             BPD does not recognize market affects
51     03 S                         2,588,000,000                   2,968,622,387               380,622,387        (12)      on GAS Securities
70     05 S                539,000,000                                                0         539,000,000        (13)      Partner Error
          a
            P=Primary, S=Secondary




* This list represents the fiscal year 2006 material differences with your trading partner
greater than $250M. Should you choose to perform the IG Agreed-upon Procedures per
I TFM 2-4705.75d please follow the instructions in the cover e-mail.




                                                                                                                                                                        Attachment A
                                                      Intragovernmental Reporting & Analysis System
                                        Intragovernmental Comparative Closing Package Explanation of Differences Report
                                                                       Year End 2006


                                                                        Reporting Agency 20-Department of the Treasury
Trading Partner/                                              Reported                Material                                         Adjusted             Unknown/
  Reciprocal Category                                         Amount                  Difference                Adjustments*           Reporting            Unreconciled          Explanation(s)
Partner 12-Department of Agriculture
  RC 02-Interest Receivable/Payable Reporting Agency             $709,000,000                                                     $0         $709,000,000                       Accounting Methodology Difference
                                    Trading Partner              $427,000,000             $282,000,000                            $0         $427,000,000          $282,000,000 Accounting Methodology Difference
                                    Reporting Agency Basis of Accounting: Accrual vs. Cash
                                    Trading Partner Basis of Accounting: Not Stated
                                        Reporting Agency Remarks: FFB v. Department of Agriculture -- Difference of $281,297,401 is due to timing. Difference of $702,599 is attributed to Accounting Methodology. FFB
                                        uses the accrual basis whereas Agriculture uses cash basis.

(1)                                     Trading Partner Remarks: End of acctg period falls on weekend and payment to FFB not due until first business day of next acctg period.
Partner 12-Department of Agriculture
          RC 05-Borrowings Interest Reporting Agency           $5,247,000,000                                             $0        $5,247,000,000                         Accounting Methodology Difference
                 Revenue/Expense Trading Partner               $4,484,000,000             $763,000,000                    $0        $4,484,000,000        $763,000,000 Accounting Methodology Difference
                                    Reporting Agency Basis of Accounting: Accrual vs. Cash
                                    Trading Partner Basis of Accounting: Not Stated
                                    Reporting Agency Remarks: SGL 6330 is a legislative mandated expense. It was incorrectly added to SGL 5312. The correct posting is a deduction to SGL 5312. This difference was
                                    also due to timing.

(2)                                     Trading Partner Remarks: Difference in methodologies for recording interest credit on FFB CBO's.
Partner 14-Department of Interior
            RC 01-Investments/Debt Reporting Agency             $8,670,000,000                                                $0     $8,670,000,000                    Confirmed Reporting
                                   Trading Partner              $8,069,224,000                $600,776,000                    $0     $8,069,224,000   $600,776,000 Accounting Methodology Difference
                                   Trading Partner Basis of Accounting: SFFAS 27
                                   Reporting Agency Remarks: BPD v. Department of Interior -- BPD confirmed with IFCS. The difference with AFS 20X8147, is being researched. For AFS 14X5198, ($22,955.23), the
                                   difference is due to amortization calculation for effective interest methods used by BPD vs. DOI.

(3)                                     Trading Partner Remarks: During 4th Quarter, Interior implemented SFFAS 27, which requires removal of component entity amounts from the trial balance
Partner 15-Department of Justice
            RC 01-Investments/Debt Reporting Agency               $1,246,000,000                                            $0        $1,246,000,000                           Confirmed Reporting
                                     Trading Partner              $2,082,266,000                $836,266,000                $0        $2,082,266,000           $836,266,000 Accounting Methodology Difference
                                     Trading Partner Basis of Accounting: Not Stated
                                     Reporting Agency Remarks: BPD confirms with agency in IFCS. Agency figure in IFCS did not match what was reported in IRAS. However, the difference is due to Deposit Funds
                                     being included in IRAS for 15X6874 and 15X6118 but not in IFCS. The BPD does not report Deposit Funds in IFCS
                                     Trading Partner Remarks: The DOJ records investments for Seized Assets Deposit Fund (15x6874) and the U.S. Attorney's Office (15x6118) as intragovernmental activity. However,
                                     these are excluded from intragovernmental reporting by Treasury.
Partner 15-Department of Justice
         RC 26-Benefit Contributions Reporting Agency                             $0                                        $0                       $0                        Confirmed Reporting
                  Revenue/Expense Trading Partner                    $155,092,000               $155,092,000   ($155,092,000)                        $0                    $0 Accounting Error
                                     Reporting Agency Remarks: Treasury does not receive benefit payments from other Federal Agencies. It would appear that DOJ is coding Treasury (20) for FICA payments that should
                                     be coded as General Fund of the Treasury (99).
                                     Trading Partner Remarks: The DOJ correctly reported this amount with Trading Partner (TP) 99 in the initial IRAS submission, however the TP was incorrectly reported with TP 20 in
Partner 16R-Pension Benefit Guaranty Corporation
           RC 03-Investment Interest Reporting Agency              ($348,000,000)                                           $0         ($348,000,000)                          Confirmed Reporting
       Expense/Revenue -Exchange Trading Partner                  $2,392,000,000              $2,740,000,000                $0        $2,392,000,000        $2,740,000,000 Accounting Methodology Difference
                                     Trading Partner Basis of Accounting: GAAP-FAS35
                                     Reporting Agency Remarks: BPD confirms with IFCS. Difference equals amount reported to IRAS by agency in SGL 7180 (Unrealized Gains).
                                     Trading Partner Remarks: PBGC marks it's securities to market in accordance with GAAP and Treasury uses absolute value reporting methodology.
Partner 19-Department of State
      RC 18-Transfers in/Out without Reporting Agency                             $0                                        $0                       $0                        Confirmed Reporting
                    Reimbursement Trading Partner                  ($905,762,000)               $905,762,000     $905,762,000                        $0                    $0 Accounting Error
                                     Reporting Agency Remarks: Treasury does not recognize a transfer involving the State Department. It would appear that State transferred funds to the General Fund of the Treasury (99)
                                     and incorrectly identified Treasury (20) as the partner.

(4)                                     Trading Partner Remarks: Input error coded to Partner 20 - should've been coded to F.99
Partner 27-Federal Communications Commission
            RC 01-Investments/Debt Reporting Agency          $4,418,000,000                                                       $0       $4,418,000,000                       Accounting Methodology Difference
                                   Trading Partner           $4,708,476,000                     $290,476,000                      $0       $4,708,476,000          $290,476,000 Confirmed Reporting
                                   Reporting Agency Basis of Accounting: Not stated

(5)                                     Reporting Agency Remarks: As of 9/30/06, BPD's calculation is not based on actual purchase price/discount and holding period.
Partner 27-Federal Communications Commission
           RC 03-Investment Interest Reporting Agency            $235,000,000                                               $0           $235,000,000                          Accounting Methodology Difference
       Expense/Revenue -Exchange Trading Partner                 $183,697,000               $51,303,000                     $0           $183,697,000           $51,303,000 Confirmed Reporting
                                     Reporting Agency Basis of Accounting: Not Stated
                                     Reporting Agency Remarks: As of 9/30/06, BPD's calculation is not based on actual purchase price/discount and holding period. Estimate is overstated
Partner 27-Federal Communications Commission
             RC 22-Buy-Sell Related Reporting Agency                         $0                                 $225,000,000             $225,000,000                          Accounting Error
                Receivable/Payable Trading Partner               $225,000,000             $225,000,000                      $0           $225,000,000                      $0 Confirmed Reporting
                                     Reporting Agency Remarks: (T-Bill Cusip # 912828CW8 matured on 9/30/06. Funds were not received as of 9/30/06. Face amount totals $225,000,000 was reclassified to Accounts
                                     Receivable.
Partner 28-Social Security Administration
           RC 05-Borrowings Interest Reporting Agency                        $0                                 $565,000,000             $565,000,000                          Accounting Error
                  Revenue/Expense Trading Partner                $565,000,000             $565,000,000                      $0           $565,000,000                      $0 Confirmed Reporting

(6)                                     Reporting Agency Remarks: The Internal Revenue Service should have coded an “F” expense with SSA. Instead they coded an “N” refund with the public
Partner 28-Social Security Administration
  RC 24-Buy-Sell Revenue/Expense Reporting Agency                      $98,000,000                                                $0          $98,000,000                       Confirmed Reporting
                                   Trading Partner                    $737,000,000              $639,000,000                      $0         $737,000,000          $639,000,000 Confirmed Reporting

(7)                                     Reporting Agency Remarks: Difference due to Recip. Category classification structure as reflected in IRAS (exchange/nonexchange). No real recip. Difference




                                                                                                                            1
Partner 36-Department of Veterans Affairs
            RC 01-Investments/Debt Reporting Agency       $12,683,000,000                                           $0     $12,683,000,000                             Confirmed Reporting
                                   Trading Partner        $13,666,000,000            $983,000,000     ($983,000,000)       $12,683,000,000                         $0 Accounting Error
                                   Reporting Agency Remarks: BPD confirms with IFCS. Agency confirmed with BPD in IFCS but did not report the same balance in the Closing Package
                                        Trading Partner Remarks: VA should have reported $12,683 million on the GFRS, the amount VA reported on the 4th quarter IRAS. VA's loans payable were erroneously added to VA's
(8)                                     Treasury securities
Partner 36-Department of Veterans Affairs
           RC 03-Investment Interest Reporting Agency           $791,000,000                                          $0         $791,000,000                            Confirmed Reporting
       Expense/Revenue -Exchange Trading Partner                           $0          $791,000,000       $790,736,615           $790,736,615                 $263,385 Accounting Error
                                     Reporting Agency Remarks: BPD confirms with IFCS. Agency confirmed with BPD in IFCS but did not report a balance in the Closing Package.


(9)                                     Trading Partner Remarks: VA should have reported $790.7 million on the GFRS, the amount VA reported on the 4th quarter IRAS. The interest revenue was excluded in error.
Partner 36-Department of Veterans Affairs
   RC 17-Loans Receivable/Payable Reporting Agency              $982,000,000                                        $0          $982,000,000                          Confirmed Reporting
                                  Trading Partner                         $0        $982,000,000       $982,000,000             $982,000,000                      $0 Accounting Error
                                  Reporting Agency Remarks: BPD & FFB confirmed with IFCS. Veterans has a $980 million dollar loan with BPD and a $2 million dollar loan with FFB. However they did not report a
                                  balance in the Closing Package.

(10)                                    Trading Partner Remarks: VA should have reported $982 million on the GFRS, the amount VA reported on the 4th quarter IRAS.
Partner 47-General Services Administration
             RC 22-Buy-Sell Related Reporting Agency              $119,000,000                                                 $0         $119,000,000                       Accounting Methodology Difference
                Receivable/Payable Trading Partner                $281,000,000           $162,000,000                          $0         $281,000,000          $162,000,000 Accounting Methodology Difference
                                     Reporting Agency Basis of Accounting: Allowance (1319)
                                     Trading Partner Basis of Accounting: Not Stated

                                    Reporting Agency Remarks: Treasury reports SGL 1319 against a liability that GSA has for Judgment Fund disbursements. GSA reports the full balance of this liability on their books.
                                    Trading Partner Remarks: Treasury reduces their A/R balance by an Allowance for Loss on A/R. GSA records amount of full liability on their books.
Partner 50-Securities and Exchange Commission
            RC 01-Investments/Debt Reporting Agency                           $0                                           $0                    $0                          Accounting Methodology Difference
                                    Trading Partner            $3,674,528,000            $3,674,528,000                    $0      $3,674,528,000        $3,674,528,000 Confirmed Reporting
                                    Reporting Agency Basis of Accounting: Non-federal deposit fund
                                    Reporting Agency Remarks: Difference is due to SEC reporting Deposit Fund balances whereas BPD does not.
Partner 51-Federal Deposit Insurance Corporation
            RC 01-Investments/Debt Reporting Agency           $51,640,000,000                                              $0     $51,640,000,000                            Confirmed Reporting
                                    Trading Partner           $51,894,899,151              $254,899,151                    $0     $51,894,899,151          $254,899,151 Accounting Methodology Difference
                                    Trading Partner Basis of Accounting: Not Stated
                                    Reporting Agency Remarks: BPD confirms with IFCS. Agency confirmed with BPD in IFCS but reported a different balance in the Closing Package.
                                        Trading Partner Remarks: FDIC confirms reporting; however, diference is due to accounting methodology for treatment of market adjustment on AFS securities (SGL 1618) recognized
(11)                                    FDIC but not by UST.
Partner 51-Federal Deposit Insurance Corporation
           RC 03-Investment Interest Reporting Agency           $2,588,000,000                                        $0       $2,588,000,000                            Confirmed Reporting
       Expense/Revenue -Exchange Trading Partner                $2,968,622,387         $380,622,387                   $0       $2,968,622,387             $380,622,387 Accounting Methodology Difference
                                     Trading Partner Basis of Accounting: Not Stated
                                     Reporting Agency Remarks: BPD confirms with IFCS. Agency confirmed with BPD in IFCS but did not report a figure in the Closing Package.
                                        Trading Partner Remarks: FDIC confirms reporting; however, diference is due to accounting methodology for treatment of unrealized loss on AFS securities (SGL 7280) recognized by
(12)                                    FDIC but not by UST and diferent methods for accruing interest earned on securities (SGL 1340).
Partner 60-Railroad Retirement Board
            RC 01-Investments/Debt Reporting Agency             $1,893,000,000                                                $0    $1,893,000,000                           Confirmed Reporting
                                     Trading Partner            $1,200,466,000             $692,534,000                       $0    $1,200,466,000         $692,534,000 Accounting Methodology Difference
                                     Trading Partner Basis of Accounting: Not stated
                                     Reporting Agency Remarks: BPD confirms with IFCS. The agency did not report the same balance for 60X8118 in IRAS.
                                     Trading Partner Remarks: Difference due to NRRIT securities not reflected in IRAS
Partner 69-Department of Transportation
            RC 01-Investments/Debt Reporting Agency            $19,625,000,000                                                $0   $19,625,000,000                           Accounting Methodology Difference
                                     Trading Partner           $19,739,054,000             $114,054,000                       $0   $19,739,054,000         $114,054,000 Accounting Methodology Difference
                                     Reporting Agency Basis of Accounting: Deposit fund treated as non-federal
                                     Trading Partner Basis of Accounting: Not Stated
                                     Reporting Agency Remarks: difference is due to DOT reporting Deposit Fund balances whereas BPD does not.
                                     Trading Partner Remarks: Deposit fund activity.
Partner 70-Department of Homeland Security
           RC 05-Borrowings Interest Reporting Agency             $539,000,000                                                $0      $539,000,000                           Confirmed Reporting
                   Revenue/Expense Trading Partner                             $0          $539,000,000           $539,000,000        $539,000,000                      $0 Accounting Error
                                     Reporting Agency Remarks: FEMA incorrectly reported $507 million against TP 99 -- it should have been TP 20. DHS will report an error in their FY 2006 4th quarter Material
                                     Difference Report. FEMA will make a correction reflected in their first quarter FY 2007 IRAS.

(13)                                    Trading Partner Remarks: DHS/FEMA recorded the transactions to TP99 instead of TP20.
Partner 78R-Farm Credit System Insurance Corp
            RC 01-Investments/Debt Reporting Agency              $2,107,000,000                                               $0        $2,107,000,000                           Confirmed Reporting
                                      Trading Partner            $2,107,433,000                   $433,000                    $0        $2,107,433,000                $433,000   Confirmed Reporting
                                      Reporting Agency Remarks: Rounding in GFRS
Partner 78R-Farm Credit System Insurance Corp
  RC 02-Interest Receivable/Payable Reporting Agency                $17,000,000                                               $0            $17,000,000                          Confirmed Reporting
                                      Trading Partner               $17,469,000                   $469,000                    $0            $17,469,000               $469,000   Confirmed Reporting
                                      Reporting Agency Remarks: difference is attributed to rounding. Treasury rounded to millions, the partners rounded to thousands.
Partner 78R-Farm Credit System Insurance Corp
           RC 03-Investment Interest Reporting Agency               $85,000,000                                               $0            $85,000,000                          Confirmed Reporting
       Expense/Revenue -Exchange Trading Partner                    $84,705,000                   $295,000                    $0            $84,705,000               $295,000   Confirmed Reporting
                                      Reporting Agency Remarks: difference is attributed to rounding. Treasury rounded to millions, the partners rounded to thousands.
Partner 78R-Farm Credit System Insurance Corp
  RC 24-Buy-Sell Revenue/Expense Reporting Agency                               $0                                            $0                        $0                       Confirmed Reporting
                                      Trading Partner                   $251,000                  $251,000                    $0                $251,000              $251,000   Confirmed Reporting
                                      Reporting Agency Remarks: The difference is attributed to rounding. Treasury rounded to millions, the partners rounded to thousands.
Partner 83-Export-Import Bank of the United States
   RC 17-Loans Receivable/Payable Reporting Agency               $4,911,000,000                                               $0        $4,911,000,000                           Confirmed Reporting
                                      Trading Partner            $4,910,700,000                   $300,000                    $0        $4,910,700,000                $300,000   Accounting Methodology Difference
                                      Trading Partner Basis of Accounting: Difference in methodology for reporting rounded am
                                      Reporting Agency Remarks: The difference is attributed to rounding. Treasury rounded to millions, the partners rounded to thousands.




                                                                                                                          2
Partner 86-Department of Housing and Urban Development
           RC 03-Investment Interest Reporting Agency             $1,527,000,000                                             $0     $1,527,000,000                         Confirmed Reporting
       Expense/Revenue -Exchange Trading Partner                  $1,531,000,000               $4,000,000                    $0     $1,531,000,000             $4,000,000 Confirmed Reporting
                                     Reporting Agency Remarks: BPD’s IFCS figure is greater than IRAS by $171,182. This is due to Inflation Compensation for 9/30/06 which was reported in IFCS but not in IRAS. The
                                     weekend inflation issue is being worked on by BPD. Agency reporting in IFCS and IRAS match.
Partner 89-Department of Energy
            RC 01-Investments/Debt Reporting Agency              $25,050,000,000                                             $0    $25,050,000,000                         Accounting Methodology Difference
                                     Trading Partner             $23,767,000,000          $1,283,000,000                     $0    $23,767,000,000        $1,283,000,000 Accounting Methodology Difference
                                     Reporting Agency Basis of Accounting: Level Yield amortization
                                     Trading Partner Basis of Accounting: DOE uses the eff yield method of amortizing zero c
                                     Reporting Agency Remarks: The Market Value Adjustment of $1,361,550,328 is part of the difference because the BPD does not have an SGL to classify the MV adjustment. It is put in
                                     SGL 2533, but DOE uses SGL 1638 and SGL 1639 which zero each other out.
Partner 89-Department of Energy
           RC 03-Investment Interest Reporting Agency               $693,000,000                                             $0       $693,000,000                         Accounting Methodology Difference
       Expense/Revenue -Exchange Trading Partner                  $1,166,000,000            $473,000,000                     $0     $1,166,000,000          $473,000,000 Accounting Methodology Difference
                                     Reporting Agency Basis of Accounting: Gain/loss recognition
                                     Trading Partner Basis of Accounting: DOE uses the eff yield meth of amortizing zero cou

                                           Reporting Agency Remarks: Difference of 463,483,317.96 is because DOE does not recognize unrealized gains/losses on the Zero coupon bonds because they hold them until maturity.

*Represents 'accounting error' and 'current year timing' differences only.




                                                                                                                             3
                                                                                                                                      U.S. Department of the Treasury                                                                                                                                   ATTACHMENT B
KPMG           Summary of Uncorrected Audit Differences                                                                        Audit of the Consolidated Financial Statements                                                                                                       Summary of Audit Differences - Schedule 1
                                                                                                                                              Fiscal Year 2006


                                                                                                                            Impact of audit differences on consolidated financial statement captions- Debit/(Credit)
                                                                                       Type of Error            Statement of Changes in Net Position Effect                            Balance Sheet Effect
                                                                                        Known Audit
                                                                                      Difference (KD)                     Audit Difference arising in
                                                                                      Most Likely Audit
 W/P Ref   #                                  Description                             Difference (MLD)     Current Period          Prior Period              Total          Net Position             Assets             Liabilities             Disposition

               Current year effect of prior period uncorrected audit differences:
BPD-RJE        Public Debt                                                                  KD                                                                                                                     (336,502,000)                 Passed            Intragovernmental
BPD-RJE        Intragovernmental Debt                                                       KD                                                                                                                      336,502,000                  Passed           Account Adjustments
               To reclassify the Treasury's funds from intragovernmental                                                                                                                                                                                                   "
               debt holdings to Debt Held by the Public as of 9/30/05                                                                                                                                                                                                      "
                                                                                                                                                                                                                                                                           "
                                                                                                                                                                                                                                                                           "
                                                                                                                                                                                                                                                                           "

               Uncorrected audit differences (before tax) in the current period                                                                                       -                                                                                                    "

                                                                                                                                                                                                                                                                           "
BPD-RJE        Public Debt                                                                  KD                                                                                                                     (188,785,000)                 Passed                    "
BPD-RJE        Intragovernmental Debt                                                       KD                                                                                                                      188,785,000                  Passed                    "
               To reclassify the Treasury's funds from intragovernmental
               debt holdings to Debt Held by the Public as of 9/30/06


FMS-JE         Federal Debt Interest (Restitution of Foregone Interest - FY 2006)           KD                  156,774,563                                 156,774,563         156,774,563                                                      Passed

FMS-JE         Other Federal Costs                                                          KD                  (156,774,563)                           (156,774,563)       (156,774,563)                                                        Passed

               To record forgone interest during the fiscal year 2006 debt
               issuance suspension period that, as required by statute, was
               restored by Treasury through the restitution of foregone interest                                                                                      -
               appropriation                                                                                                                                          -
                                                                                                                                                                      -
                                                                                                                                                                      -
                                                                                                                                                                      -
                                                                                                                                                                      -
                                                                                                                                                                      -
                                                                                                                                                                      -
                                                                                                                                                                      -
                                                                                                                                                                      -
                                                                                                                                                                      -

                                                                                                                           0                      -                  0                     0                  -                       -                       -




                                                                                                                           0                      -                  0                     0                  -                       -                       -




               Financial statement amounts (as per final financial statements)
                                                                                                          n/a                   n/a                   n/a                 n/a                  n/a                n/a                     n/a


               Uncorrected audit differences as a percentage of financial statement
               amounts                                                                                    n/a                   n/a                   n/a                 n/a                  n/a                n/a                     n/a
